USCA4 Appeal: 18-4525

Doe: 51

Filed: 04/292020

• Pg: 1 of 1

FILED: April 29, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-4525
(3:17-cr-00239-RJC-DCK-1)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
JEROME COLLINS
Defendant - Appellant

ORDER

The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the,Court.
/s/ Patricia S. Connor. Clerk

JEROME COLLINS -USM# 33852-058
FCIBENNETTSVILLE
FEDERAL CORRECTIONAL INSTITUTION
P.O. BOX 52020
BENNETTSVILLE, SC 29512

USCA4 Appeal: 18-4525

Doc: 47-2

Filed: 03/31/2020

Pg: 1 of 1

Total Pages:(3 of 3)

FILED: March 31, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-4525
(3:17-cr-00239-RJC-DCK-1)
UNITED STATES OF AMERICA

*

Plaintiff - Appellee
v.
JEROME COLLINS
Defendant - Appellant

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg:1of30

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-4525
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.

JEROME COLLINS,
Defendant - Appellant.

Appeal from the United States District Court for the Western District of North Carolina, at
Charlotte. Robert J. Conrad, Jr., District Judge. (3:17-cr-00239-RJC-DCK-l)
Argued: December 11, 2019

Decided: March 31, 2020

Before GREGORY, Chief Judge, and FLOYD and THACKER, Circuit Judges.
Affirmed by unpublished opinion. Judge Thacker wrote the opinion, in which Judge Floyd
joined. Chief Judge Gregory wrote a dissenting opinion.
ARGUED: Melissa Susanne Baldwin, FEDERAL DEFENDERS OF WESTERN
NORTH CAROLINA, INC., Charlotte, North Carolina, for Appellant. Anthony Joseph
Enright, OFFICE OF THE UNITED STATES ATTORNEY, Charlotte, North Carolina,
for Appellee. ON BRIEF: Anthony Martinez, Federal Public Defender, Charlotte, North
Carolina, Joshua B. Carpenter, Appellate Chief, FEDERAL DEFENDERS OF WESTERN
NORTH CAROLINA, INC., Asheville, North Carolina, for Appellant. R. Andrew
Murray, United States Attorney, OFFICE OF THE UNITED STATES ATTORNEY,

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg:2of30

Charlotte, North Carolina, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

2

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg:3of30

THACKER, Circuit Judge:
Jerome Collins (“Appellant”) pled guilty to possession of a firearm by a convicted
felon in violation of 18 U.S.C. § 922fg). Because the district court determined Appellant
had two prior convictions for crimes of violence, it calculated Appellant’s base offense
level as 24 pursuant to section 2K2.1(a)(2) of the United States Sentencing Guidelines
(“Guidelines”). But, on appeal, Appellant argues the district court erred in classifying one
of his prior convictions — a New York conviction for attempted assault in the first degree
-- as a crime of violence because, according to Appellant, New York attempt is broader
than generic attempt. Because we conclude Appellant’s prior New York conviction for
attempted assault in the first degree is a crime of violence as defined by the Guidelines’
“force clause,” we affirm.
I.
In 2017, Appellant pled guilty to possession of a firearm by a convicted felon in
violation of 18 U.S.C. $ 922(g). Prior to sentencing, the probation officer prepared a
Presentence Investigation Report (“PSR”) which identified relevant conduct attributable to
Appellant. The PSR identified Appellant had two prior convictions for crimes of violence
pursuant to Guidelines section 4B1.2 — a North Carolina common law robbery conviction
and a New York conviction for attempted assault in the first degree, in violation of N.Y.
Penal Law section 110.00 and section 120.10(1). Based on these two prior crimes of
violence, the Guidelines specified a base offense level of 24. See IJ.S.S.G. § 2K2.1 (2018)
(prescribing a base offense level of 24 “if the defendant committed any part of the instant
offense subsequent to sustaining at least two felony convictions” for crimes of violence).
3

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 4 of 30

Appellant challenged the PSR calculation, arguing his prior New York conviction does not
qualify as a crime of violence.1 Without this crime of violence, Appellant’s base offense
level would decrease to 20.
At sentencing, the district court overruled Appellant’s objection. The district court
held the New York conviction “ha[s] the elements sufficient to meet the force clause, and
also appears to be largely consistent with aggravated assault so that it meets the enumerated
clause provision.” J.A. 40-41.:2 After calculating a Guidelines range of 77 to 96 months
of imprisonment, the district court sentenced Appellant to 84 months. Appellant timely
appealed.
Because Appellant challenges his criminal sentence, we possess jurisdiction
pursuant to 28 TI.S.C. $ 1291 and 18 U.S.C. S 3742.
II.
Ordinarily, this Court considers “de novo whether a defendant’s prior offense
qualifies as a crime of violence under the career offender guidelines.” United States v.
Riley, 866 F.3d 326. 327-28 (4th Cir. 2017). However, when an appellant fails to preserve
the error by properly objecting below, we review only for plain error. See United States v.
Bennett, 698 FAd 194. 200 (4th Cir. 2012). To preserve an issue for appeal, “an objection
[or argument] must be timely and state the grounds on which it is based.” In re Under

1 Although Appellant made different arguments in support of his objection to the
district court than he makes on appeal, we need not restate those arguments here because
they are immaterial to our decision.
2 Citations to the “J.A.” refer to the Joint Appendix filed by the parties in this appeal.
4

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg:5of30

Seal, 749 FAri 276. 287 (4th Cir. 2014) (alteration in original) (internal quotation marks
omitted). .
The parties disagree as to whether Appellant properly preserved this issue for
appeal. In the district court, Appellant argued New York attempted assault is not a crime
of violence because New York assault is not a categorical match for generic assault. In
this Court, however, Appellant abandoned that argument and argues only that New York
attempt is broader than generic attempt. Appellant argues his objection to the classification
of the offense as a crime of violence was sufficient to preserve the issue. The Government,
on the other hand, argues the objection was too generic to properly alert the district court
to the true “grounds on which it [was] based.” In re Under Seal, 749 F.3d at 287.
Because Appellant does not prevail even under the preserved error standard, we
need not decide whether Appellant’s objection was sufficient to preserve the error. We
assume the standard of review is de novo. See United States v. Zayyad, 741 F.3d 452. 459
(4th Cir. 2014) (assuming the appellant preserved the issue where he could not prevail even
under the presumed error standard of review); see also United States v. Palacios, 677 F.3d
234. 245 n.6 (4th Cir. 2012) (same).
III.
A.
The base offense level for a conviction pursuant to 18 U.S.C. § 922fgl is level 24
“if the defendant committed any part of the instant offense subsequent to sustaining at least
two felony convictions of either a crime of violence or a controlled substance offense.”
IT.S.S-G. 8 2K2-1taY2Y To define a “crime of violence,” the relevant section of the
5

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 6 of 30

Guidelines cites directly to the career offender Guidelines. Id. at § 2K2.1 cmt. n.l. There,
a crime of violence is defined as any state or federal offense punishable by imprisonment
for a term exceeding one year, that
(1)

has as an element the use, attempted use, or threatened
use of physical force against the person of another [the
force clause], or

(2)

is murder, voluntary manslaughter, kidnapping,
aggravated assault, a forcible sex offense, robbery,
arson, extortion or the use or unlawful possession of a
firearm ... or explosive material [the enumerated
offense clause].

Id. § 4B 1.2(a). A crime of violence “include[s] the offenses of aiding and abetting,
conspiring, and attempting to commit such offenses.” Id. at cmt. n.l.
To determine whether the offense is a crime of violence under either the force clause
or the enumerated clause, we employ the “categorical approach.” See Taylor v. United
States, 49S IT S. 575. 600 (1990); United States v. Hammond, 912F.3d658. 661 (4th Cir.
2019). The categorical approach “focus[es] solely on . . . the elements of the crime of

1

conviction ... while ignoring the particular facts of the case.” Mathis v. United States,
S. r.t. 2243. 2248 (2016) (Citation omitted). “The point of the categorical inquiry is not to
determine whether the defendant’s conduct could support a conviction for a crime of
violence, but to determine whether the defendant was in fact convicted of a crime that
qualifies as a crime of violence.” United States v. McCollum, 885 F.3d 300. 304 (4th Cir.
2018) (emphases in original) (internal quotation marks omitted).
Applying the categorical approach first requires us to determine “what crime, with
what elements, [Appellant] was convicted of.” Mathis, 136 S. Ct. at 2249. This task is
6

•

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg:7of3G

simplest when the prior offense comes from a statute setting forth a single set of elements,
otherwise called an “indivisible” statute. Id. at 2248. However, when a statute “list[s]
elements in the alternative, and thereby defme[s] multiple crimes,” the statute is considered
“divisible.” Id. at 2249. When faced with a divisible statute, we apply the modified
categorical approach, which allows us to look to a limited class of documents to determine
“which statutory phrase was the basis for the conviction.” Johnson v. United States, 559
IJ.S. 133. 144 (2010). After determining which elements make up Appellant’s crime of
conviction, we determine whether the offense categorically matches the federally defined
“generic” offense. Mathis, 136 S. Ct. at 2249.
For purposes of the force clause, we consider whether the state crime at issue has as
an element the “use, attempted use, or threatened use of physical force against the person
of another.” TT.S.S.G. § 4B1.2taV1 V Because our analysis is limited to the conduct the
state offense “necessarily involved,... we must presume that the conviction ‘rested upon
[nothing] more than the least of th[e] acts’ criminalized.” Moncrieffe v. Holder, 569 U.S.
184. 190-91 (2013) (quoting Johnson, 559 U.S. at 1371 (alterations in original). In
evaluating whether a state offense meets this definition, “we look to state law and the
interpretation of [the] offense articulated by that state’s courts.” United States v. Bell, 201
F.3d 455. 469 (4th Cir. 2018) (internal quotation marks omitted) (alteration in original).
The definition of the term “physical force,” however, and the separate question of whether

7

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg:8of30

the elements of a state offense satisfy that definition, present issues of federal law.
Johnson, 559 I J.S. at 138.
B.
Appellant’s prior conviction was for attempted first degree assault. In New York, a
person is guilty of assault in the first degree when,
1.

With intent to cause serious physical injury to another
person, he causes such injury to such person or to a third
person by means of a deadly weapon or a dangerous
instrument; or

2.

With intent to disfigure another person seriously and
permanently, or to destroy, amputate or disable
permanently a member or organ of his body, he causes
such injury to such person or to a third person; or

3.

Under circumstances evincing a depraved indifference to
human life, he recklessly engages in conduct which '
creates a grave risk of death to another person, and thereby
causes serious physical injury to another person; or

4.

In the course of and in furtherance of the commission or
attempted commission of a felony or of immediate flight
therefrom, he, or another participant if there be any,
causes serious physical injury to a person other than one
of the participants.

N.Y. Penal Law § 120.10(1)—(4). Appellant was convicted of attempting to commit assault
as it is defined in subsection one. See id. § 120.10(1) (requiring a defendant to act “[wjith
intent to cause serious physical injury to another person” and actually “cause such injury

8

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg:9of30

... by means of a deadly weapon or dangerous instrument”).3 New York criminalizes
attempt “when, with intent to commit a crime, [the defendant] engages in conduct which
tends to effect the commission of such crime.” Id. § 110.00.
To determine whether the offense here is a crime of violence, we first evaluate the
substantive offense and then consider the effect of the inchoate nature of the offense.
1.
Applying the categorical approach, the state crime necessarily must have as an
element the “use, attempted use, or threatened use of physical force against the person of
another” to qualify as a crime of violence under the force clause. U.S.S.G. § 4B1.2(al(TT
“[T]he specific intent to inflict bodily injury” is sufficient to meet the mens rea
requirements of the force clause. United States v. Reid, 861 F.3d 523. 527 (4th Cir.
2017). As for the actus reus, the Supreme Court has interpreted the term “physical force”
as “violent force — that is, force capable of causing physical pain or injury to another
person.” Johnson, 659 TJ.S. at 140 (emphasis in original). An offense which can be
committed using only “de minimis .physical contact” is not categorically a crime of
violence. United States v. Hammond, 912 F.3d 658.661 (4th Cir. 2019) (internal quotation
marks omitted).

3 Though there was some argument in the district court as to which subsection was
the basis for Appellant’s conviction, the district court found he had been convicted of
subsection one of New York’s first degree assault statute. Appellant has not challenged
this aspect of the district court’s decision on appeal. Further, because the statute is
divisible, our own review of the record also reveals Appellant was convicted of subsection
one. Namely, the indictment tracks the language of subsection one, see J.A. 67, and the
certificate of conviction lists the offense of conviction as § 120.10-1, see id. at 64.
9

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 10 of 30

Appellant does not contest on appeal that the completed offense of New York first
degree assault pursuant to N.Y. Penal Law section 120.10(1) is a crime of violence. First,
the offense categorically matches the generic mens rea requirement of the force clause
because it requires the specific “intent to cause serious physical injury to another person.”
N.Y. Penal Law § 120.10(1). Further, the offense categorically matches the actus reus
requirement of the force clause because causing serious physical injury certainly requires
physical “force capable of causing physical pain or injury to another person.” Johnson,
559IJ.S. at 140. As a result, New York first degree assault pursuant to section 120.10-1 is
a crime of violence under the force clause.
The question we are left to answer, and the source of much debate here, is whether
attempted first degree assault is also a crime of violence.
2.

When a defendant is convicted pursuant to a state’s general attempt statute which
encompasses all or nearly all substantive crimes, “two sets of elements are at issue: the
elements of attempt and the elements of the underlying . . . offense.” United States v.
Dozier, 848F.3d 180. 185 (4th Cir. 2017) (emphasis in original); see also United States v.
Dinkins, 928 F.3d 349. 358 (4th .Cir. 2019). Though we have held that “both the inchoate
crime and the underlying offense are subject to [the] categorical approach,” McCollum,
885 F.3d at 305. we have also recognized that general attempt statutes do not set forth

10

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 11 of 30

standalone crimes, Dozier, 848 F.3d at 185. and “must be considered in relation to the
object crime,” Dinkins, 928 F.3d at 359.
Because attempt is subject to the categorical approach, its elements must
categorically match generic attempt. “Our precedent defines generic attempt as requiring
(1) culpable intent to commit the crime charged and (2) a substantial step toward the
completion of the crime, which is consistent with the definition of attempt found in the
Model Penal Code.” Dozier, 848 F.3d at 186 (internal quotation marks omitted). Under
New York law, “[a] person is guilty of an attempt to commit a crime when, with intent to
commit a crime, he engages in conduct which tends to effect the commission of such
crime.” N.Y. Penal Law § 110.00.
a.
The first point of contention here is whether New York attempt categorically
matches the mens rea requirement of generic attempt — specific intent. Appellant argues
it does not. On its face, New York’s attempt statute does appear to require specific intent.
See N.Y. Penal Law § 110.00 (“A person is guilty of an attempt to commit a crime when,
with intent. . .”). And New York courts have been clear “an attempt to commit a crime
consists of [] the intent to commit the crime.” People v. Foster, 225 N.E.2d 200. 201 (N.Y.
1967). However, Appellant argues New York courts permit defendants to plead guilty to
attempt crimes where the substantive offense does not require specific intent, thereby
changing the New York definition of attempt.
For example, in Foster, the Court of Appeals of New York upheld a defendant’s
' guilty plea to the nonexistent crime of attempted manslaughter in the first degree. 221
11

USCA4 Appeal: 18-4525

N.R2d at 201.

Doc: 46

Filed: 03/31/2020

Pg: 12 of 30

Though the Court of Appeals recognized that manslaughter does not

require intent and that one could not intend to commit an accidental crime, it held the
defendant to the plea because he knowingly accepted the deal in satisfaction of an
indictment charging a heavier crime. See id. at 201-02. Similarly, in People v. Martinez,
a jury convicted the defendant of attempted manslaughter in the first degree. 611 N.E.2d
111. 277-78 (N.Y. 1993). There, however, the Court of Appeals overturned the conviction
and held that a jury could not find the defendant guilty of each element because one cannot
intend manslaughter. Id. at 278. The Court of Appeals recognized that it would “allow a
defendant to plead to a nonexistent crime in satisfaction of an indictment charging a crime
with a heavier penalty,” but held a defendant could not be indicted or tried on such a charge.
Id.
Appellant argues this practice of allowing pleas to nonexistent crimes effectively
changes the definition of attempt in New York such that it no longer necessarily requires
specific intent. The Government avers that New York’s acceptance of these pleas is
irrelevant to our consideration of attempt, arguing that we need not consider attempt in a
vacuum. Instead, the Government argues we should consider attempt “in relation to the
object crime,” Dinkins, 928 F.3d at 359. and determine what mens rea is required for the
entire offense of conviction. The difference between these positions is immaterial because
in either instance, we hold New York attempt does require specific intent.
Taking Appellant’s view first, we disagree that New York’s acceptance of
nonexistent pleas changes the definition of attempt in New York. Even in cases where
New York accepts a legally impossible plea, the courts are clear “[a]n attempt to commit a
12

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 13 of 30

crime consists of [] the intent to commit the crime.” Foster, 225 N.E.2d at 201. Further,
in Mathis, the Supreme Court defined the “elements” of an offense as either “what the jury
must find beyond a reasonable doubt to convict the defendant” at trial, or “at a plea hearing,
. . . what the defendant necessarily admits when he pleads guilty.” 136 S. Ct. at 2248.
Though a jury could not convict on a charge of attempted manslaughter, a guilty plea to
this charge requires the defendant to “necessarily admit” all of the elements charged,
including attempt’s element of specific intent.
The dissenting opinion suggests the majority is incorrect in our interpretation of
Foster. See Dissenting Op. at 22-27. In support, the dissent focuses on the New York
Court of Appeals discussion of the difference between guilty pleas and trials. See Foster,
225 N.R2d at 201. But the dissenting analysis of Foster ends just one sentence short of
the operative language. After noting that a guilty plea “presents an entirely different
situation” from a jury trial, the Foster court continues:
The alleged infirmity of the plea to attempted manslaughter in the second
degree in this case arises from the definition of what constitutes an ‘attempt’
under section 2 of the Penal Law. The question on this appeal is whether this
definition which includes an ‘ intent to commit a crime’ renders the plea taken
by defendant inoperative, illogical or repugnant and, therefore, invalid. We
hold that it does not when a defendant knowingly accepts a plea to attempted

13

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 14 of 30

manslaughter as was done in this case in satisfaction of an indictment
charging a crime carrying a heavier penalty.
Id.
Here, the New York Court of Appeals recognizes that the defendant pled guilty to a
definition of attempt “which includes an ‘intent to commit a crime.”’ Id. Though that
might be otherwise “inoperative, illogical, or repugnant and, therefore, invalid” in the
context of attempt, the Court held that it was not so here where the defendant knowingly
took the plea. Id. Thus, contrary to the dissenting opinion, New York demonstrates that it
does, in fact, require a defendant to plead guilty to specific intent.
Turning to the Government’s view, if we consider attempt in relation to the
substantive offense, the result is even more clear. N.Y. Penal Law section 120.10(1)
requires a defendant act “with intent to cause serious physical injury to another person.”
Because attempt requires specific intent to commit the object offense, one could not
attempt New York first degree assault as defined in this subsection without having specific
intent. Thus, there could not be a legally impossible plea to this crime because a defendant
would necessarily admit to having the requisite intent by pleading guilty. Taking this view
supports the purposes of the categorical approach as well because it reveals, by only
considering the elements, that “the defendant was in fact convicted of a crime that qualifies
as a crime of violence.” McCollum, 885 F.3d at 304 (emphasis in original).
Accordingly, we hold the mens rea element of New York attempt categorically
matches the mens rea required by generic attempt.

14

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 15 of 30

b.
Finally, we must determine whether New York attempt’s actus reus categorically
matches the actus reus required by generic attempt.
Generic attempt requires a substantial step toward the completion of the crime. See
Dozier, 848 F.3d at 186. A substantial step is “a direct act in a course of conduct planned
to culminate in commission of a crime that is strongly corroborative of the defendant's
criminal purpose.”

Id. (internal quotation marks omitted).

Mere preparation is not

generally enough, see id., but the defendant “need not be [at] the last possible act before”
the completion of crime, United States v. Pratt, 351 F.3d 131. 136 (4th Cir. 2003). To
determine whether a defendant has taken a substantial step, we must “assess how probable
it would have been that the crime would have been completed” absent intervening
circumstances. United States v. Engle, 676 F.3d 405.423 (4th Cir. 2012) (citing Pratt, 351
F.3d at 1361.
Pursuant to New York’s general attempt statute, a defendant must “engage[] in
conduct which tends to effect the commission of [the] crime.” N.Y. Penal Law § 110.00.
Appellant argues this statute is broader than generic attempt because it punishes conduct
that falls short of a “substantial step” by only requiring conduct that is “potentially and
immediately dangerous.”

Appellant’s Br. 12-13 (citing People v. Mahboubian, M3

N-F„2d 34. 48 (N.Y. 1989)). However, New York has clarified that its standard requires
“conduct that came dangerously near commission of the completed crime.” People v.

15

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 16 of 30

Denson, 42 N.FAd 676. 685 (N.Y. 2015)); see also People v. Rizzo, 158 N.E. 888. 889
(N.Y. 1927).
New York’s highest court has described this standard as “more stringent than the
Model Penal Code ‘substantial step’ test,” which has been adopted by this court. People
v. Acosta, 609 N.R2d 518. 521 (N.Y. 1993). The First, Second, and Ninth Circuits have
agreed. See United States v. Davis, 873 F.3d 343. 345 (1st Cir. 2017); United States v.
Thrower, 914 F.3d 770. 776-77 (2d Cir. 2019), cert, denied, No. 19-5024, 2019 WL
4923513 (Oct. 7, 2019); United States v. Rivera-Ramos, 578 F.3d 1111. 1115 (9th Cir.
2009) (explaining, “[t]o this day, the definition of ‘attempt’ in New York requires a
stronger showing” than the Model Penal Code). We see no reason to disagree with our
sister circuits on this point and therefore hold that New York attempt does require a
substantial step.
C.
In sum, we hold Appellant’s prior New York conviction for attempted assault in
violation of N.Y. Penal Law section 120.10(1) is a crime of violence pursuant to the force
clause because it “has as an element the use, attempted use, or threatened use of physical
force against the person of another.” IJ.S.S.G. $ 4B1.2(al(Tl. The elements of New York
attempt categorically match generic attempt, and subsection one of the assault statute
requires specific intent and violent force. And because the offense is a crime of violence
pursuant to the force clause, we need not consider whether it also satisfies the enumerated
clause.

16

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 17 of 30

IV.
For the foregoing reasons, the judgment of the district court is
AFFIRMED.

17

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 18 of 30

GREGORY, Chief Judge, dissenting:
This should be a straightforward case. As the majority recognizes, when evaluating
inchoate crimes under the force clause, this Court’s precedent instructs us that “both the
inchoate crime and the underlying offense are subject to [the] categorical approach.” Maj.
Op. at 10 (quoting United States v. McCollum, 885 F.3d 300. 305 (4th Cir. 2018)); see also
McCollum, 885F.3dat.303 (“precedent directs that we consider the inchoate crime ... and
its object independently”). Here, Appellant does not dispute that the elements of the
underlying crime (aggravated assault) is a categorical match with his New York offense.
Rather, he only contends that the elements of the inchoate aspect (attempt) is not a
categorical match. Our precedent requires a defendant to act with the specific intent to
commit the underlying crime. United States v. Dozier, 848 F.3d 180. 185 (4th Cir. 2017).
New York, however, permits defendants to plead guilty to offenses when they do not—
indeed, cannot—possess the specific intent to commit the underlying crime. See, e.g,
People v. Guishard, 789 N.Y.S.2d 332. 332 (2005) (“Although the crime of attempted
assault in the first degree is a legal impossibility, a defendant may plead guilty to a
nonexistent crime.”); see also Dale v. Holder, 610 F.3d 294. 302 (5th Cir. 2010) (noting
“New York courts’ willingness to accept guilty pleas to hypothetical crimes, including that
of attempted felony assault”). Because New York attempt does not categorically require
specific intent, Appellant’s prior attempt offense is overbroad. As a result, we should

18

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 19 of 30

reverse the district court’s holding that Appellant’s New York offense is a categorical
match with the generic characterization of attempted aggravated assault.1
I respectfully dissent from the majority’s holding to the contrary.2

I.
The principal difference between the majority and me is how we interpret New
York’s “attempt” statute in light of its practice of accepting guilty pleas for attempt crimes
lacking specific intent. Oddly enough, the majority recognizes New York’s peculiar
approach of accepting guilty pleas to nonexistent crimes,3 recognizes that this approach
begets a practice of accepting pleas for attempt crimes where specific intent could not be
present,4 and presumably recognizes that the underlying conviction at issue here was in

1 As the majority notes, the parties also dispute whether Appellant properly
preserved this issue for appeal. Maj. Op. at 5. Although Appellant now changes his
argument challenging his criminal history score, the Supreme Court has explained that
“[ojnce a federal claim is properly presented, a party can make any argument in support of
that claim; parties are not limited to the precise arguments they made below.” Yee v. City
of Escondido, 503 IJ.S. 519. 534 (1992). This Court has followed this reasoning in cases
involving challenges to a defendant’s criminal history score. See United States v.
Robinson, 744 F.3d 293. 300 n.6 (4th Cir. 2014) (“Although [Petitioner] did not make this
precise argument before the district court, [Petitioner] did challenge his criminal history
score, and thus preserved his claim.”). Because Appellant presented a variation of this
argument challenging his criminal history score below, he properly preserved his claim.
Therefore, de novo review is appropriate here.
2 Because I agree with Collins that New York attempt does not require specific
intent, I would not reach the question of whether New York law requires a substantial step
towards the completion of the crime.
3 See Maj. Op. at 11-12 (discussing a case where “New York upheld a defendant’s
guilty plea to the nonexistent crime of attempted manslaughter in the first degree”).
4 See Maj. Op. at 12 (“one could not intend to commit an accidental crime”).
19

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 20 of 30

fact resolved by plea5. Yet, rather than concluding that—at least in the context of guilty
pleas—New York does not require specific intent, the majority instead “hold[s] New York
attempt does require specific intent.” Maj Op. at 12 (emphasis added). Why?
The majority’s brief explanation does not tell us much, and what it does say simply
fails to stand up against reason. The majority begins its analysis by rightly noting that
“[o]n its face, New York’s attempt statute does appear to require specific intent.” Maj. Op.
at 11. But, of course, “[o]ur inquiry does not end with th[e] statutory language.” Dozier,
848 F.3d at 184. “To the extent the statutory definition of a prior offense has been
interpreted by the state’s highest court, this interpretation informs and constrains our
analysis of the state law.” Id.
Looking at the relevant caselaw from New York courts, it is undeniably clear New
York extends attempt liability to defendants who lack the specific intent to commit the
underlying crime. As the Fifth Circuit points out, “[although New York law recognizes
attempt liability only for crimes that involve a mens rea of specific intent—as opposed to
crimes of recklessness and crimes with no mens rea element such as felony assault—New
York courts permit convictions by plea to hypothetical or legally impossible offenses such
as attempted recklessness.” Dale, 610 F.3d at 302. For example, New York does not
permit a defendant to be tried and convicted of an attempted reckless assault. See id. (citing
People v. Williams, 338 N.Y.S.2d 980 (1972) (overturning a jury conviction for attempted
reckless assault because the relevant subsection contained no element of intent)). Yet, New

5 See J.A. 64 (Appellant’s New York Certificate of Conviction).
20

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 21 of 30

York courts permit a defendant to plead guilty for crimes of attempted recklessness. Dale,
610 at 302 (citing Torres v. McGrath, 407 F. Supp. 2d 551. 561-62 (S.D.N.Y. 2006)
(denying petitioner’s habeas petition where he pleaded guilty to “attempted reckless
endangerment in the first degree in violation of [New York] Penal Law §§ 110.00 and
120.25”)). Indeed, a survey of cases demonstrates New York courts’ willingness to accept
guilty pleas to hypothetical attempt crimes where it would be impossible for a defendant to
possess the specific intent to commit the underlying crime. See id. (citing People v.
Guishard, 789 N.Y.S.2d 332 (2005) (affirming plea conviction to attempted assault in the
first degree even though the crime was a “legal impossibility”);. People v. Barker, 635
N.Y.S.2d 383 (1995) (sustaining plea conviction to the “non-existent crime” of attempted
first-degree manslaughter, but noting that “a jury verdict convicting a person of that crime
would be invalid”); In re Maldonado, 516 N.Y.S.2d 673. 674 (1987) (“Like attempted
felony murder, there is no such crime as attempted felony assault... [but a] different result
may be reached where the conviction of an attempt to commit a crime, itself not involving
intent, is obtained by way of a plea of guilty.”)); see also People v. Johnson, 675 N.E.2d
1217 (N.Y. 1996) (noting New York courts approve “plea[s] to the technically nonexistent
crime of an attempt to commit a specific crime which, by definition, is committed without
intent”).
Despite its logical inconsistency, this convention is endorsed by the New York
Court of Appeals because “the practice of accepting pleas to lesser crimes is generally'
intended as a compromise in situations where conviction is uncertain of the crime charged.”
People v. Foster, 225 N.E.2d 200.202 (19671 (internal citation omitted). Since this bargain
21

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31 /2020

Pg: 22 of 30

is normally “struck for the defendant’s benefit,” New York has concluded, “[t]he judgment
entered on the plea in such situation may be based upon no objective state of facts.” Id.
Consequently, New York courts permit defendants to plead guilty to attempt crimes when
the defendants do not—and, in some cases, cannot—possess the specific attempt to commit
the underlying crime. Therefore, at least when it comes to plea bargains, New York attempt
statute is overbroad. And the district court’s opinion should be reversed.

II.
The majority justifies a contrary conclusion only by turning its head to this practice
of accepting pleas for attempt crimes when specific intent is absent and misinterpreting the
language it borrows from caselaw.
First, the majority errs by attempting to rely on what the New York Court of Appeals
says—not what it does. In rejecting Appellant’s argument that New York’s acceptance of
legally impossible pleas extends attempt liability to crimes where specific intent is absent,
the majority writes: “Even in cases where New York accepts a legally impossible plea, the
courts are clear ‘ [a]n attempt to commit a crime consists of [] the intent to commit the
crime.’” Maj. Op. at 12-13 /quoting Foster. 225 N.E.2d at 201Y. This misses the point. If
a court accepts a guilty plea to a legally impossible attempt crime lacking specific intent,
then the court is demonstrating that it extends attempt liability to defendants who lack
specific intent to commit the crime. It wouldn’t matter what the court says it’s doing in the
process. By permitting plea bargains in attempt cases where a defendant does not have the

22

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 23 of 30

specific intent to commit the underlying crime, New York is interpreting its attempt statute
to not require specific intent in the context of plea bargaining. .
This alone would be enough to reject the majority’s position.

However, the

majority’s error is compounded by its misreading of what the New York Court of Appeals
actually says in Foster. The majority interprets the quoted language above as an indication
that New York insists on construing its attempt statute to require specific intent even when
a defendant pleads guilty to a legally impossible attempt offense. But Foster says exactly
the opposite. Rather than holding that specific attempt is required when courts accept a
legally impossible plea, the quoted language comes at a moment when the Foster Court is
juxtaposing trials (which require specific attempt) with plea bargains (which do not) and
explaining its broader interpretation of attempt when dealing with the latter. This is
abundantly clear from the context in which the quote arises:
The defendant relies upon People v. Brown (21 A.D.2d 738. 249
N.Y.S.2d 9221 in support of his position. In Brown the defendant was
convicted, pursuant to a jury verdict, of the crime of attempted manslaughter,
having been indicted for attempted murder in the first degree. The Appellate
Division modified, holding: ‘An attempt to commit a crime consists of (1)
the intent to commit the crime; (2) the performance of an act toward the
commission and (3) failure to consummate. There must be an intent to
commit a specific crime in order to constitute an attempt (People v. Moran,
123N.Y. 25i4.257.2AN.R412. 10 T JR.A. 109, * * * ). An attempt to commit
manslaughter is apparently a contradiction because the specific crime of
manslaughter involves no intent and, accordingly, an intention to commit a
crime whose distinguishing element is lack of intent is logically repugnant.’
121 A-P.2d 738. 739. 249 N.Y.S.2d 922. 923.1 There is no doubt that the
above case would be dispositive of . this appeal if we were faced with an
appeal from a jury verdict.
Foster, 225 N.R.2d at 201 (emphasis added). But Brown was not dispositive because
Foster was about a plea, not a trial. Id. (“In our case, however, the charge in the indictment
23

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 24 of 30

is manslaughter i[n] the first degree and a plea was taken to attempted manslaughter in the
second degree as a lesser included crime.”). Thus, the court concluded that “[t]his presents
an entirely different situation.” Id. Rather than providing proof for the majority’s position,
the quoted language from the New York Court of Appeals does just the opposite: it shows
that, unlike trials, New York courts do not insist on specific intent being present in the
context of plea bargains. Therefore, contrary to what the majority asserts, New York
attempt does not require specific intent.
The flaws in the majority opinion do not end there. The majority’s attempt to put
this case in the context of Mathis y. United States, 136 S. Ct. 2243 (2016), also misses the
mark. While attempting to explain the elements of New York attempt, the majority writes,
“the Supreme Court defined the ‘elements’ of an offense as either ‘what the jury must find
beyond a reasonable doubt to convict the defendant’ at trial, or ‘at a plea hearing,... what
the defendant necessarily admits when he pleads guilty.’” Maj. Op. at 13 (quoting Mathis,
136 S. Ct. at 2248T6 The majority then jumps to its conclusion: “Though a jury could not
convict on a charge of attempted manslaughter, a guilty plea to this charge requires the
defendant to ‘necessarily admit’ all of the elements charged, including attempt’s element
of specific intent.” Maj. Op. at 13. In other words, rather than looking at New York’s plea
bargain practice as an effort to extend attempt liability to defendants who lack specific

6 Of course, typically what a jury would have to prove in trial and what a defendant
necessarily admits when he pleads guilty is the same thing. And it is likely that the
Supreme Court did not intend for these to set out separate standards.
24

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 25 of 30

intent, the majority instead says that a defendant who pleas to an impossible offense
“necessarily admits” to all of the elements charged.
This position is unsound. ‘“Elements’ are the ‘constituent parts’ of a crime’s legal
definition—the things the ‘prosecution must prove to sustain a conviction’” Mathis, 136
S. Ct. at 2248 (quoting Black’s Law Dictionary 709 (10th ed. 2014)).^ As an impossible
offense, the majority is correct to note that a jury could not convict on the hypothetical
charge of attempted manslaughter. But the majority’s erroneous shift to say that a'
defendant “necessarily admits” to all the elements when he pleads guilty to an impossible
offense is befuddling. An “admission” is “an acknowledgment that facts are true.” Black’s
Law Dictionary (11th ed. 2019). However, legally impossible offenses by their very nature
cannot be true. See id. (defining impossibility as “[t]he fact or condition of not being able
to occur, exist, or be done”); see also Knapik v. Ashcroft, 384 F.3d 84. 92 (3d Cir. 2004)
(“Attempted reckless endangerment is not a crime involving moral turpitude because,
categorically speaking, the concept makes no sense. Attempt (necessarily requiring intent
to commit a crime) is inconsistent with recklessness (which, by definition, implies acting
without intent).”). It follows, then, that a defendant cannot necessarily admit to an
impossible offense—acknowledging that the facts are true in a legally impossible offense
simply makes no sense. The majority’s conclusion that a defendant necessarily admits to
possessing specific intent when pleading to an impossible offense is thus a clear distortion
of what the Mathis Court had in mind when defining elements of a crime. Logic dictates
that a defendant does not necessarily admit to possessing specific intent when pleading

25

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 26 of 30

guilty to impossible offenses such as attempted manslaughter and attempted recklessness.
The majority errs in concluding otherwise.

III.
The majority claims additional language in Foster supports its view that “[ejven in
cases where New York accepts a legally impossible plea, the courts are clear ‘[a]n attempt
to commit a crime consists of [] the intent to commit the crime.’” Maj Op. at 12-14. In
making its case, the majority argues that my analysis of Foster “ends just one sentence
short of the operative language.” Maj. Op. at 13. Purporting to provide a more complete
picture, the majority contends that the following language from Foster proves that New
York “does, in fact, require a defendant to plead guilty to specific intent” during a plea to
an impossible offense:
The alleged infirmity of the plea to attempted manslaughter in the second
degree in this case arises from the definition of what constitutes an ‘attempt’
under section 2 of the Penal Law. The question on this appeal is whether this
definition which includes an ‘intent to commit a crime’ renders the plea taken
by defendant inoperative, illogical or repugnant and, therefore, invalid. We
hold that it does not when a defendant knowingly accepts a plea to attempted
manslaughter as was done in this case in satisfaction of an indictment
charging a crime carrying a heavier penalty.
Maj. Op. at 13-14 (quoting Foster, 225 N.E.2d at 2011.
This language—and, indeed, the Foster opinion as a whole—is a far cry from a
“clear” statement that a plea to a logically impossible attempt offense requires specific
intent to commit the crime. As explained above, the only time the Foster Court comes
close to making any such statement is when it quotes another case from which it
26

USCA4 Appeal: 18-4525

Doc: 46

distinguishes itself.

Filed: 03/31/2020

Pg: 27 of 30

That, by itself, should reduce confidence in the majority’s

interpretation. In addition, however, the language quoted by the majority concerns itself
with only the question of whether a guilty plea to an impossible offense is valid, not
whether specific intent must be present when pleading to an impossible offense. If any
rule could be derived from this language it is not that a defendant who pleads guilty to a
logically impossible offense possesses specific intent, but rather that a logically impossible
plea will be sustained when a defendant knowingly accepts the plea to avoid a higher
penalty. The majority’s conclusion that Foster supports the position that specific intent is
required when a defendant pleads guilty to a legally impossible attempt offense is
unfounded. And, perhaps most importantly, it directly contradicts subsequent New York
caselaw that interprets Foster as permitting pleas to impossible attempt offenses when
specific intent is lacking. See, e.g, Johnson, 675 N.E.2d at 1219 (“Following People v.
Foster, [] we have approved of a plea to the technically nonexistent crime of an attempt to
commit a specific crime which, by definition, is committed without intentP) (emphasis
added), In re Maldonado, 516N.Y.S.2dat674 (citing Foster for the proposition that “[ljike
attempted felony murder, there is no such crime as attempted felony assault ... [but a]
different result may be reached where the conviction of an attempt to commit a crime, itself
not involving intent, is obtained by way of a plea of guilty”) (emphasis added).
IV.
The Government’s attempt to rescue the district court’s opinion is also unavailing.
The Government asks us to consider attempt in conjunction with its substantive offense
and conclude that Appellant was convicted of committing a crime of violence in New York.
27

,

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 28 of 30

But this overlooks that “precedent directs that we consider the inchoate crime ... and its
object independently.” McCollum, 885 F.3d at 303 (emphasis added). This means the
underlying crime and the inchoate aspect have to match with the relevant generic offense.
When the inchoate aspect is overbroad, one cannot borrow elements from the underlying
crime to try to fill in the picture. If this was permissible, then McCollum's conclusion that
“conspiracy to commit murder in aid of racketeering is not a ‘crime of violence’ since it
does not require an overt act,” id., would be incoherent. Murder in aid of racketeering
clearly requires an overt act. See 18 IJ.S.C.A. 8 1959 (explaining the necessary activities
a defendant must engage in to commit violent crimes in aid of racketeering). And if a court
was permitted to use that element to supplement conspiracy’s lack of an overt act
requirement, then McCollum would likely have come out the other way. Contrary to what
the Government requests, our precedent requires us to analyze the inchoate offense and the
underlying offense independently.
This does not mean that we consider these elements “in a vacuum.” When the
inchoate offense requires the completion of the underlying offense, the nature of the
conviction demands we consider the elements of the underlying offense and the inchoate
aspect in tandem. Thus, in United States v. Dinkins, we wrote that “[bjecause completion
of the underlying substantive felony must be proven to sustain a conviction for being an
accessory before the fact, we necessarily must evaluate both sets of elements.” 928 F.3d
349. 359 (4th Cir. 2019). But we wrote this while understanding that because accessory
before the fact crimes depend on the underlying offense, they are in a different posture than
other inchoate offenses: “This fact distinguishes Dinkins’ conviction as an' accessory
28

USCA4 Appeal: 18-4525

Doc: 46

Filed: 03/31/2020

Pg: 29 of 30

before the fact from other inchoate offenses, such as conspiracy, which do not require that
the object crime be completed.” Id. at 359 n.7 (internal citation omitted). Like conspiracy,
attempt does not require that the underlying offense be completed. See United States v.
Neal, 78 F.3d901.907 (4th Cir. 1996) (“If completion of a crime was a necessary predicate
to criminal prosecution, an attempt would never be criminal.”). Thus, it does not lend itself
to the Dinkins analysis. New York’s attempt statute and its aggravated assault statute must
be considered independently.

V.

In sum, our precedent provides a straightforward path for district courts to decide
when inchoate state offenses are a categorical match with their generic counterparts.
Dozier states “[wjhere, as here, the defendant is convicted under a state’s general attempt
statute, one embracing all (or nearly all) possible substantive crimes, two sets of elements
are at issue: the elements of attempt and the elements of the underlying, attempted
offense.” 848 F.3d at 185. McCollum explains, when examining whether an offense is
overbroad, “we consider the inchoate crime ... and its object independently.” 885 F.3d
303. And Dinkins clarifies that only when an inchoate offense is predicated on the
completion of the underlying offense do we interpret “the elements of the substantive crime
[as] incorporated into the [inchoate offense].” 928 F.3d at 358. Those cases resolve this
one. Unlike generic attempt, New York law extends attempt liability to cases where
defendants do not possess the specific attempt to commit a crime. Therefore, New York’s

29

USCA4 Appeal: 18-4525

Doc: 46

attempt statute is overbroad.

Filed: 03/31/2020

Pg: 30 of 30

The district court erred when concluding otherwise.

Accordingly, I cannot join the majority’s opinion.
I respectfully dissent.

30

USCA4 Appeal: 18-4525

Doc: 49

Filed: 04/14/2020

Pg: 1 of 1

FILED: April 14, 2020

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-4525
(3:17-cr-00239-RJC-DCK-1)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
JEROME COLLINS
Defendant - Appellant

STAY OF MANDATE UNDER
FED. R. APP. P. 41(d)(1)

Under Fed. R. App. P. 41(d)(1), the timely filing of a petition for rehearing
or rehearing en banc or the timely filing of a motion to stay the mandate stays the
mandate until the court has ruled on the petition for rehearing or rehearing en banc
or motion to stay. In accordance with Rule 41(d)(1), the mandate is stayed pending
further order of this court.

/s/Patricia S. Connor, Clerk

USCA4 Appeal: 18-4525

Doc: 48

Filed: 04/14/2020

Pg: 1 of 14

RECORD NO. 18-4525
Jit Qflje

Qfrritpii states (ttmtrt of Appeals
War QTIjp Wmxrtij GItmttt

UNITED STATES OF AMERICA,
Plaintiff- Appellee,

V.

JEROME COLLINS,
Defendant - Appellant.

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF NORTH CAROLINA
AT CHARLOTTE
PETITION FOR REHEARING EN BANC

Anthony Martinez
Federal Public Defender for the
Western District of North Carolina
Melissa S. Baldwin
Assistant Federal Public Defender
Federal Public Defender for
The Western District of North Carolina
129 West Trade Street
Charlotte, North Carolina 28202
(704) 374-0720
Counselfor Appellant
THE LEX GROUP ♦ 1108 East Main Street ♦ Suite 1400 ♦ Richmond, VA 23219
(804) 644-4419 ♦ (800) 856-4419 ♦ Fax: (804) 644-3660 ♦ www.thelexgroup.com

USCA4 Appeal: 18-4525

Doc: 48

Filed: 04/14/2020

Pg:3of14

Table of Authorities
Page(s)
Cases
Dale v. Holder,
610 F.3d 294 (5th Cir. 2010)

3

GiUv. I.N.S.,
420 F.3d 82 (2d Cir.52005)

1,3,6

Knapik v. Ashcroft,
384 F.3d 84 (3d Cir. 2004)

1,3,7

North Carolina v. Alford,
400 U.S. 25 (1970)

6

People v. Campbell,
72 N.Y.2d 602 (1988)

3

People v. Foster,
19 N.Y.2d 150 (1967)

1,3, 5,6

People v. Johnson,
89 N.Y.2d 905 (1996)

3,6

United States v. Alston,
611 F.3d 219 (4th Cir. 2010)

6

United States v. Dinkins,
928 F.3d 34 (4th Cir. 2019)

7

United States v. Dozier,
848 F.3d 180 (4th Cir. 2017)

4,7

li

USCA4 Appeal: 18-4525

Doc: 48

Filed: 04/14/2020

Pg:4of14

Statutes
18 U.S.C. § 922(g)

2

N.Y. Penal Law § 110.00

2

N.Y. Penal Law § 120.10(1)

2

Rule
Fed. R. App. P. 35(b)(1)(B)

1

Guideline
U.S.S.G. § 4B1.2

2

Other Authority
2 Wayne LaFave, Substantive Criminal Cam § 11.3(b) (3d ed. 2017)

!

ui

2

USCA4 Appeal: 18-4525

Doc: 48

Filed: 04/14/2020

Pg:5of14

Statement of Reasons for En Banc Review
This case presents an exceptionally important issue—whether a New York
attempt categorically qualifies as a crime of violence. A unique feature of New York
law is that it permits a defendant to plead guilty to attempting a crime, which by
definition, cannot be committed intentionally, such as attempted reckless
endangerment. See People v. Poster.; 225 N.E.2d 200 (N.Y. 1967).
The panel decision answered this question in the affirmative by finding that a
defendant entering a guilty plea “necessarily admit[s]” to possessing specific intent.
Slip Op. at 12-14. The United States Courts of Appeals for the Second and Third
Circuit, however, have reached a different conclusion. Knapik v. Ashcroft, 384 F.3d 84,
92 (3d Cir. 2004) (New York conviction for attempted reckless assault could not
satisfy categorical approach); Gill v. I.N.S., 420 F.3d 82, 91 (2d Cir. 2005) (“no mental
state c[ould] be clearly discerned from” a New York conviction for attempted reckless
endangerment) (emphasis in original)). Chief Judge Gregory dissented, noting that the
majority reached its conclusion “only by turning its head to [New York’s] practice of
accepting attempt crimes when the specific intent is absent....” Slip. Op. at 22. The
conflict between the panel majority’s opinion and the binding decisions from other
Circuits warrants this Court’s en banc review. See Fed. R. App. P. 35(b)(1)(B) (“a
proceeding presents a question of exceptional importance if it involves an issue on
which the panel decision conflicts with the authoritative decisions of other United
States Courts of Appeals that have addressed the issue”).
1

USCA4 Appeal: 18-4525

Doc: 48

Filed: 04/14/2020

Pg:6of14

Factual Background and Panel Decision
Jerome Collins pled guilty to possession of a firearm by a convicted felon in
violation of 18 U.S.C. § 922(g). Slip. Op. at 3. The PSR identified two prior
convictions for crimes of violence under U.S.S.G. § 4B1.2—a North Carolina
common law robbery conviction and a New York conviction for attempted assault in
the first degree, in violation of N.Y. Penal Law section 110.00 and section 120.10(1).
Id. Two prior crime of violence convictions would assign1 a base offense level 24,'
whereas the base offense level would drop to a level 20 if the defendant has only one
prior conviction for a crime of violence. Slip Op. at 3-4.
The district court overruled the objection to the New York attempt’s
classification as a crime of violence and sentenced Mr. Collins to a within guidelines
sentence of 84 months. Slip. Op. at 4. Mr. Collins then timely appealed his sentence to
this Court. Slip. Op. at 4.
On appeal, Mr. Collins argued that the district court erred by classifying his
New York attempt as a crime of violence, because New York attempt does not
necessarily require the defendant harbor specific intent, thereby rendering it
overbroad. See Op. Br. at 5-12. As Professor LaFave notes in his leading treatise, “so
long as the crime of attempt is deemed to require an intent-type of mental state, there
can be no such thing as an attempt to commit criminal-negligence involuntary
manslaughter.” 2 Wayne LaFave, Substantive Criminal Law § 11.3(b) (3d ed. 2017).
There are, however, such crimes as attempted negligent manslaughter in New York,
2

USCA4 Appeal: 18-4525

Doc: 48

Filed: 04/14/2020

Pg:7of14

because “New York Courts permit convictions by plea to hypothetical or legally
impossible offenses such as attempted recklessness.” Dale v. Holder; 610 F.3d 294, 302
(5th Cir. 2010). See also People v. Campbell\ 72 N.Y.2d 602, 604 (1988) (“An attempt
exists as an integral offense having an identity separate from the crime which is being
attempted.”).
So, for example, the New York Court of Appeals affirmed a guilty plea to an
attempted aggravated assault, acknowledging that the defendant had plead “to the
technically nonexistent crime of an attempt to commit a specific crime which, by
definition, is committed without intent.” People v. Johnson, 89 N.Y.2d 905, 907-08
(1996). According to New York’s highest court, these convictions are appropriate if
reached through plea-bargaining, since that process is “a compromise” which “may
relate to a hypothetical situation without objective basis.” People v. Foster, 19 N.Y.2d
150,152-54 (1967). “[S]uch a plea should be sustained on the ground that it was
sought by the defendant and freely taken as part of a bargain which was struck for the
defendant’s benefit.” Id. at 154.
Two Courts of Appeals have found this feature of New York attempt
precludes satisfying the categorical approach. Gill, 420 F.3d at 91; Knapik, 384 F.3d at
92! As the Third Circuit recognized, such convictions make no sense because attempts
“necessarily require[] intent to commit a crime[,]” but reckless crimes are “by
definition” committed without intent. Id.

3

USCA4 Appeal: 18-4525

Doc: 48

Filed: 04/14/2020

Pg:8of14

The panel affirmed the judgment. See Slip Op. at 17. The majority concluded
that New York’s attempt statute states the defendant must have the “intent to commit
a crime” and that a defendant therefore “pleadjs] guilty to specific intent.” Slip op. at
12-14. It reasoned that:
Though a jury could not convict on a charge of attempted
manslaughter, a guilty plea to this charge requires the
defendant to “necessarily admit all of the elements charged,
including attempt’s element of specific intent.. .the New
York Court of Appeals recognizes that the defendant pled
guilty to a definition of attempt ‘which includes an intent to
commit a crime.’ Though that might be otherwise
‘inoperative, illogical, or repugnant and, therefore invalid’ in
the context of attempt, the Court held that it was not so here
where the defendant knowingly took the plea.
Slip Op. at 13-14.
Chief Judge Gregory dissented, noting “[t]his should be a straightforward
case.” Slip Op. at 18. Fourth Circuit precedent, United States v. Doqter, 848 F.3d 180,
185 (4th Cir. 2017), “requires a defendant to act with the specific intent to commit the
underlying crime” and New York “permits defendants to plead guilty to offenses
when they do not—indeed, cannot—possess the specific intent to commit the
underlying crime.” Slip Op. at 18. Because New York attempt is overbroad, he would
have reversed the district court’s decision classifying Mr. Collins’ New York
attempted first degree assault conviction as a crime of violence. Slip Op. at 18-19.

4

USCA4 Appeal: 18-4525

Doc: 48

Filed: 04/14/2020

Pg:9of14

Argument
I.

This issue is exceptionally important because it conflicts with the
decisions of other U.S. Courts of Appeals.
The majority’s conclusion that New York attempt is a categorical match to

generic attempt because a defendant necessarily admits to possessing specific intent is
contrary to New York law and the decisions of the Second and Third Circuits.
As the dissent noted, New York jurisprudence makes it “undeniably clear” that
attempt liability extends to defendants “who lack the specific intent to commit the
underlying crime.” Slip Op. at 20-21 (surveying New York law). “By permitting plea
bargains in attempt cases where a defendant does not have the specific intent to
commit the underlying crime, New York is interpreting its attempt statute to not
require specific intent in the context of plea bargaining.” Slip Op. at 22-23.
“The majority justifiefd] a contrary conclusion only by turning its head to this
practice.. .and misinterpreting the language it borrows from cas.elaw.” Slip Op. at 22.
For example, the majority’s reading of Foster—the lone New York authority it relies
on for its assertion that a defendant necessarily admits to possessing specific intent—
“directly contradicts subsequent New York caselaw that interprets Foster as permitting
pleas to impossible attempt offenses when specific intent is lacking.” Slip Op. at 27
(collecting cases).
As the dissent explained, the majority’s conclusion that a defendant necessarily
admits to possessing specific intent when pleading guilty to an impossible attempt

5

USCA4 Appeal: 18-4525

Doc: 48

Filed: 04/14/2020

Pg: 10 of 14

crime is “befuddling.” Slip Op. at 25. “An admission is an acknowledgement that facts
are true. However, legally impossible offenses by their very nature cannot be true.” Id.
Indeed, New York courts recognize there are no such admissions, Johnson, 89 N.Y.2d
at 907-08 (defendant pled guilty to an attempted aggravated assault “which, by
definition, is committed without intent”), and instead rely on contract principles to
hold the defendant to his bargain, Foster; 19 N.Y.2d at 154 (“such a plea should be
sustained on the ground that it was sought by the defendant and freely taken as part
of a bargain which was struck for the defendant’s benefit”). Such an approach is akin
to an Alford plea where the defendant’s guilty plea “contains only a waiver of trial but no
admission ofguilt.” United States v. Alston, 611 F.3d 219, 227 (4th Cir. 2010) (quoting
North Carolina v. Alford, 400 U.S. 25, 32-33 (1970)). And there, because an Alford plea’s
factual basis is not confirmed by the defendant, it cannot later be used by a sentencing
court to identify the resulting conviction as an ACCA predicate. Id. at 227.
The majority’s conclusion in this case places this Circuit in conflict with the
views expressed by the Second and Third Circuits, which relied on this New York
quirk to find the categorical approach unsatisfied in other cases. The Second Circuit
found that “no mental state can be clearly discerned from” a New York conviction for
attempted reckless assault, let alone the requisite intent necessary to be classified as a
crime involving moral turpitude. Gill, 420 F.3d at 91 (emphasis in original). Similarly,
the Third Circuit confronted a New York conviction for attempted reckless
endangerment and concluded that it could not determine if the conviction
6

USCA4 Appeal: 18-4525

Doc: 48

Filed: 04/14/2020

Pg: 11 of 14

“necessarily involve[s] moral turpitude without also abandoning the categorical
approach.” Knapik, 384 F.3d at 92. Because, “categorically speaking, the concept [of
attempted reckless endangerment] makes no sense[;]” an attempt “necessarily requires
intent to commit a crime” while recklessness “by definition, implies acting without
intent.” Id.
New York’s acceptance of guilty pleas to attempt crimes where the defendant,
by definition, lacked the intent to commit the underlying crime renders the statute
overbroad. See Dorter, 848 F.3d at 185 (4th Cir. 2017) (“we hold that sentencing courts
must compare the state and generic elements of [general attempt] statutes as well as
the elements of the underlying substantive statutory offense when determining
whether a prior attempt conviction qualifies as a controlled substance offense.”);
United States v. Dinkins, 928 F.3d 349, 358 (4th Cir. 2019) (“To determine whether an
inchoate offense qualifies as a violent felony under the ACCA’s force clause, two sets
of elements are at issue: the elements of the inchoate crime and the elements of the
underlying offense.”). Mr. Collins’ plea to attempted first degree assault under New
York law should therefore not have been classified as a crime of violence.
The prospect that the panel decision may result in the same New York
conviction being classified as a crime of violence in the Fourth Circuit, when it would
not be so classified in the Second and Third Circuits warrants the full Court’s
consideration.

7

USCA4 Appeal: 18-4525

Doc: 48

Filed: 04/14/2020

Pg: 12 of 14

Conclusion
Because this case presents an issue of exceptional importance on which the
panel majority diverged from the conclusions of other Courts of Appeals, this Court
should grant rehearing en banc, reverse the judgment below and order a resentencing.
Respectfully submitted,
Anthony Martinez
Federal Public Defender for the
Western District of North Carolina
/s/Melissa S. Baldwin
Melissa S. Baldwin
Assistant Federal Public Defender
129 W. Trade St., Suite 300
Charlotte, NC 28202
(704) 374-0720
Melissa_Baldwin@fd.org
Counsel for Appellant
Jerome Collins

Dated: April 14, 2020

8

USCA4 Appeal: 18-4525

Doc: 48

Filed: 04/14/2020

Pg: 13 of 14

Certificate of Compliance
1.

This petition complies with type-volume limits because, excluding the parts of
the document exempted by Fed. R. App. P. 32(f) (cover page, disclosure
statement, table of contents, table of citations, statement regarding oral
argument, signature block, certificates of counsel, addendum, attachments):
[X] this petition contains [1,812\ words.
[ ] this petition uses a monospaced type and contains \state the number of lines
of text.

2.

This petition complies with the typeface and type style requirements because:
[ X ] this petition has been prepared in a proportionally spaced typeface using
[Microsoft Word 2016\ in [ / 4pt Garamond}; or
[ ] this petition has been prepared in a monospaced typeface using [state name
and version of wordprocessingprogram\ with [state number of characters per inch and name
of type style}.

Dated: April 14, 2020

/s / Melissa S. Baldwin
Counselfor Appellant

USCA4 Appeal: 18-4525

Doc: 48

Filed: 04/14/2020

Pg: 14 of 14

Certificate of Filing and Service
I hereby certify that on this 14th day of April, 2020,1 caused this Petition for
Rehearing En Banc to be filed electronically with the Clerk of the Court using the
CM/ECF System, which will send notice of such filing to the following registered
CM/ECF users:
Amy E. Ray
Office of the U.S. Attorney
100 Otis Street, Room 233
Asheville, North Carolina 28801
(828) 271-4661
Counselfor Appellee
Anthony J. Enright
Office of the U.S. Attorney
227 West Trade Street, Suite 1650
Charlotte, NC 28202
(704)344-6222
Counselfor Appellee
Is/ Melissa S. Baldwin
Counselfor Appellant

USCA4 Appeal: 18-4525

Doc: 48

Filed: 04/14/2020

Pg:2of14

Table of Contents
Page
Table of Authorities

ii

Statement of Reasons for En Banc Review

1

Factual Background and Panel Decision

2

Argument

5

I.

This issue is exceptionally important because it conflicts with the
decisions of other U.S. Courts of Appeals.......................................

Conclusion

5
8

Certificate of Compliance
Certificate of Filing and Service

l

